               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




              Inbound China ePacket
               Costing Methodology

                       Audit Report




                                              February 25, 2014

Report Number MS-AR-14-002
                                                                     February 25, 2014

                                                              Inbound China ePacket
                                                                Costing Methodology

                                                       Report Number MS-AR-14-002



BACKGROUND:                                 WHAT THE OIG FOUND:
Global eCommerce continues to grow,         The Postal Service did not isolate the
and the Asia-Pacific region is expected     cost of China ePackets, which limits its
to have surpassed North America in          ability to establish effective pricing
eCommerce in 2013, a trend forecasted       strategies. Although China Post sorts
to continue through at least 2016. To       and dispatches ePackets separately
capitalize on this trend, the U.S. Postal   from other mailpieces, the Postal
Service launched a new item, the            Service did not calculate ePacket cost
ePacket, through a bilateral agreement      data separately from other letter post
with China Post in fiscal year (FY) 2011.   mailpieces or report it separately in the
ePackets are small packages weighing        annual performance report to the Postal
up to 4.4 pounds with tracking and          Regulatory Commission.
delivery confirmation features and are
grouped with other inbound letter post      ePacket volume and revenue have
packets. China Post is the largest          increased, but the Postal Service still
exporter of ePackets into the U.S. with     lost at least $39 million during FYs 2011
96 percent of the total ePacket volume.     and 2012. Until accurate costs for
                                            ePackets can be identified and used as
The Postal Service has priced ePackets      a basis for pricing, the risk of revenue
under additional bilateral agreements       loss for ePackets remains high.
with Hong Kong and Singapore, and
negotiations have begun with South          The Postal Service could also pursue a
Korea as part of a larger strategy for      product classification change for
developing the Postal Service’s             inbound letter post packets, which could
international market.                       increase revenue from China Post and
                                            other business partners in emerging
During FY 2012, China generated more        global markets.
than 26 million ePackets, resulting in
over $25 million in revenue, a volume       WHAT THE OIG RECOMMENDED:
increase of 182 percent, and a revenue      We recommended the Postal Service
increase of 316 percent over FY 2011.       track and report inbound letter post
Our objective was to assess whether the     packet costs separately. We also
Postal Service accurately determines        recommended the Postal Service
the cost of inbound China ePackets.         evaluate a product classification change
                                            for inbound letter post packets.

                                            Link to review the entire report
February 25, 2014

MEMORANDUM FOR:            JOSEPH CORBETT
                           CHIEF FINANCIAL OFFICER AND
                           EXECUTIVE VICE PRESIDENT

                           GISELLE E. VALERA
                           VICE PRESIDENT, GLOBAL BUSINESS


FROM:




                           Janet M. Sorensen
                           Acting Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Inbound China ePacket Costing
                           Methodology (Report Number MS-AR-14-002)

This report presents the results of our audit of the U.S. Postal Service's Inbound China
ePacket Costing Methodology (Project Number 13RG010MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Joshua M. Bartzen, acting
director, Sales and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Inbound China ePacket                                                                                              MS-AR-14-002
 Costing Methodology


                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

ePacket Costs ................................................................................................................. 2

Product Classification ...................................................................................................... 4

Recommendations .......................................................................................................... 4

Management’s Comments .............................................................................................. 4

Evaluation of Management’s Comments ......................................................................... 5

Appendix A: Additional Information ................................................................................. 6

   Background ................................................................................................................. 6

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 7

Appendix B: Monetary Impacts ....................................................................................... 8

Appendix C: Management's Comments .......................................................................... 9
Inbound China ePacket                                                                                 MS-AR-14-002
 Costing Methodology



Introduction

This report presents the results of our self-initiated audit of the Inbound China ePacket
Costing Methodology (Project Number 13RG010MS000). Our objective was to assess
whether the U.S. Postal Service accurately determines the cost of inbound China
ePackets. See Appendix A for additional information about this audit.

The 2006 Postal Accountability and Enhancement Act (PAEA) allows the Postal Service
to enter into bilateral agreements with foreign posts to promote an efficient operation of
postal services with other nations.1 One such agreement is between the Postal Service
and the China Post Group (China Post). This bilateral agreement governs the exchange
of international products and services between the Postal Service and China Post and
supersedes postage rates established by the Universal Postal Union (UPU).2

The bilateral agreement between the Postal Service and China Post developed new
rates for existing letter class mailpieces and a new letter class mailpiece for small
lightweight packets weighing up to 2 kilograms (4.4 pounds). These mailpieces, called
“ePackets,” offer delivery tracking and confirmation and are classified with market
dominant products.3 The first bilateral agreement between the Postal Service and China
Post covering ePackets was approved in June 2010, and the most recent agreement
was approved in November 2012. While similar bilateral agreements for ePackets have
been developed with Hong Kong and Singapore, and negotiations have begun with
South Korea, China Post remains the largest exporter of ePackets into the U.S., with
96 percent of the total ePacket volume.

The PAEA also requires the Postal Service to report costs, revenue, volumes, and
quality of service to the Postal Regulatory Commission (PRC) annually. The Postal
Service maintains a product costing system designed to meet these requirements,
develop product costs, and provide information to support management decisions. The
PAEA requires that each market dominant product cover its attributable costs and
contribute to institutional costs. Because Postal Service revenue and accounting
systems alone do not provide all of the required product information for reporting
purposes, the Postal Service employs various statistical systems and special studies to
generate the annual Cost Revenue Analysis (CRA) report for domestic products and the
International CRA (ICRA) report for international products. The ICRA report provides the
costs and revenue for all classes of international mail, such as inbound and outbound

1
  Public Law 109-435, 120 Statute 3198, Title 39 U.S.C.
2
  The UPU sets the rules for international mail exchanges and makes recommendations to stimulate growth in mail,
parcel, and financial services volumes and improve the quality of service for customers. The purpose of the UPU
terminal dues system is to compensate the destination country for the cost incurred for the handling, transport, and
delivery of letter-post items from abroad.
3
  According to the PAEA, market dominant products are products for which the Postal Service holds a monopoly and
include First-Class Mail, Periodicals, Standard Mail, single-piece letters, Standard Post, Media Mail, Bound Printed
Matter, Library Mail, Special Services, and single-piece International Mail. ePackets are considered inbound
international Single-Piece First-Class Mail, a market dominant product.
                                                            1
Inbound China ePacket                                                                            MS-AR-14-002
 Costing Methodology


First-Class Mail, Priority Mail, and Express Mail. ePackets are one of multiple
mailpieces grouped within inbound international Single-Piece First-Class Mail – a
market dominant product that is required to cover its collective attributable costs.
Specific categories within this product, such as ePackets, are not required to cover their
individual attributable costs. Recognizing the costs within these categories, however, is
important to determine their profitability.

Conclusion

The Postal Service does not isolate the cost of ePackets, which limits its ability to
establish effective pricing strategies. Although China Post is required to sort and
dispatch ePackets separately from other mailpieces, the Postal Service does not track
ePacket cost data separately and records the data in the ICRA report as an aggregate
figure for inbound international letter post mailpieces. This aggregate amount includes
all inbound international letter post mailpieces, such as letters, postcards, printed
papers, and small packets.

The volume for ePackets was only 3 percent of the Postal Service’s total international
mail volume in fiscal year (FY) 2012, but it was 13 percent of the total inbound letter
post mail volume. China Post ePacket volume increased by 182 percent from FYs 2011
to 2012, and revenue increased 316 percent (see Table 1). However, the Postal Service
still lost $29.4 million on ePackets in FY 2012. In comparison, the Postal Service would
have lost more than $30.8 million in FY 2012 if ePackets remained at UPU rates.4
Therefore, the Postal Service benefited from the bilateral agreement with China Post in
that it decreased the Postal Service's net loss.

If the Postal Service isolated costs for ePackets from other letter post mailpieces, it
would have more insight into the cost, pricing, and profitability of this significant inbound
international mailpiece. Alternatively, the Postal Service could pursue a request to
reclassify all inbound letter post packets, including ePackets, from a market dominant to
a competitive product. While reclassification would require approval from the PRC, it
could require the Postal Service to raise its rates and affect revenue from China Post
and other customers in emerging global markets. Until accurate costing information for
ePackets is identified and used as a basis for product pricing, the risk of revenue loss to
the Postal Service for this mailpiece remains high. See Appendix B regarding monetary
impact.

ePacket Costs

The Postal Service did not isolate the cost of China ePackets because it did not identify
specific costs attributable to ePackets. Further, the Postal Service did not track ePacket
costs; and therefore, it did not report inbound international ePacket revenue and costs
separately in its ICRA report. Because ePackets are grouped with other international

4
 One requirement of bilateral agreements is that rates are more than UPU rates. Had this volume been processed
and delivered using the UPU rate, the revenue for ePackets from China Post would have been $23,946,076, instead
of $25,323,595.

                                                       2
Inbound China ePacket                                                                            MS-AR-14-002
 Costing Methodology


letter post mailpieces,5 which are classified under the market dominant category,
attributable costs6 are included in the aggregate for all international letter post
mailpieces. Therefore, it is difficult for the Postal Service to determine whether this
increasingly popular mailpiece is sufficiently covering its attributable costs.

While China ePacket revenues increased by $19.2 million between FYs 2011 and 2012,
(see Table 1), the Postal Service still lost $9.6 million and $29.4 million in FYs 2011 and
2012, respectively, under bilateral rates.

                        Table 1. China ePacket Revenue and Volume
                                     FYs 2011 and 20127
          Fiscal                       Percent                       Percent
           Year       Revenue         Increase      Volume (Pieces) Increase
           2011       $6,090,441               N/A        9,521,158      N/A
           2012      $25,323,595                     316%               26,831,047            182%
        Note: N/A means not applicable.
        Source: China Bilateral Rates, Air Conveyance Dues, Special Drawing Right Exchange Rate, Foreign Post
        Settlement System (FPS), and Global Business System (GBS).

Until accurate costs for ePackets can be identified and used as a basis for pricing, the
risk of revenue loss to the Postal Service for ePackets remains high. Accurate costing
and pricing are critical elements as the Postal Service pursues additional bilateral
agreements with other foreign posts. We plan to review bilateral agreements in future
audit work.




5
  Letter post mailpieces consist of letters, postcards, printed papers, and small packets.
6
  Attributable costs are the sum of volume variable plus product specific costs.
7
  FPS data was not available for FY 2011, therefore we used GBS data for FY 2011 and FPS data for FY 2012.

                                                       3
Inbound China ePacket                                                           MS-AR-14-002
 Costing Methodology


Product Classification

The Postal Service could consider pursuing a request with the PRC to reclassify all
inbound letter post packets as a competitive product to mitigate revenue loss. The
PAEA allows the Postal Service pricing flexibility to assure adequate revenues to
maintain financial stability.8 Categorizing all inbound letter post packets as competitive
products, rather than market dominant products, would require that the products cover
their attributable costs.

If the Postal Service reclassifies all inbound letter post packets as competitive products,
it is possible China Post would not agree to a new bilateral agreement for ePackets and
instead revert to UPU rates. However, under UPU rates, ePackets would lose the
delivery confirmation feature as well as the expedited service, which are incentives for
customers mailing ePackets from China. The Postal Service is contemplating a move to
reclassify all inbound letter post packets as competitive products, but it has not
submitted proposals to its Executive Leadership Team, the Board of Governors, or the
PRC.

Recommendations

We recommend the chief financial officer and executive vice president:

1. Track and report costs and revenue for all inbound letter post packets separately
   from other international letter post mailpieces, such as letters and flats.

We recommend the vice president, Global Business:

2. Evaluate changing all inbound letter post packets from market dominant to
   competitive products.

Management’s Comments

Management agreed with our findings and recommendation 1 but noted that cost
estimates would not necessarily be statistically valid or robust once the report
recommendations were implemented. In addition, management believed there were
inconsistencies in the report describing the requirement to cover ePacket costs.
Management will implement this recommendation by January 2015.

Management agreed with recommendation 2 in subsequent correspondence, but noted
that a product classification change would not always result in additional revenue or
profit. Management will implement this recommendation by March 2015. Also in
subsequent correspondence, management agreed with the monetary impacts in the
report. See Appendix C for management’s comments, in their entirety.



8
    Public Law 109-435, 120 Statute 3201, 39 U.S.C.

                                                      4
Inbound China ePacket                                                         MS-AR-14-002
 Costing Methodology



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. Regarding management's assertions that separate
tracking may not result in statistically valid or robost cost estimates and that movement
to competitive products would not always result in additional revenue or profit, we agree
and note that we recommended the Postal Service evaluate reclassification before
making any changes. We also continue to believe these determinations can be made
when results from implementation are available, and only after comparing results year
over year. Regarding management’s concern that the report did not consistently
describe the cost coverage requirement for ePackets, we have clarified the language in
the report to more accurately describe these requirements.




                                            5
Inbound China ePacket                                                                                MS-AR-14-002
 Costing Methodology



                                 Appendix A: Additional Information

Background

The Postal Service prepares the CRA and ICRA reports annually as part of its reporting
requirements under the PAEA.9 The CRA report identifies all international mail costs in
a single line item. The ICRA details this line item in terms of the international product
categories. The PRC uses information in these reports to determine whether the Postal
Service complied with the statutory requirement that each class or type of mail service
bears direct and indirect costs attributable to that class or service.

The Postal Service’s costing methodology for allocating costs to domestic and
international products uses a top-down approach.10 Because the Postal Service's
revenue and accounting systems do not provide all the information needed to attribute
costs to product subclasses and extra services, the Postal Service uses various
statistical systems and special studies to determine revenues, volumes, and costs for
many of its products, to support requests for postal price changes, and to make the
case for new products and services.

Postal Service products are categorized as market dominant or competitive. Market
dominant products are products for which the Postal Service holds a monopoly and
include First-Class Mail, Periodicals, Standard Mail, single-piece letters, Standard Post,
Media Mail, Bound Printed Matter, Library Mail, Special Services, and single-piece
International Mail. Competitive products are those that are also processed and delivered
by other industry entities, and include Express Mail. ePackets are one of multiple
mailpieces grouped within inbound international Single-Piece First-Class Mail – a
market dominant product that is required to cover its collective attributable costs

The first bilateral agreement for ePackets was developed with China Post for FY 2011.
Today, similar bilateral agreements also exist with Hong Kong Post and Singapore Post.
The Postal Service is working to extend use of this increasingly popular mailpiece with
South Korea and other countries where small parcel trade is growing.

Under the UPU terminal dues system,11 the Postal Service has no direct control over
rate setting for letter post. However, the Postal Service may enter into bilateral
agreements with countries to govern the exchange of international products and
services. Rates set forth in bilateral agreements often exceed those rates established
by the UPU. Therefore, a bilateral agreement can increase revenues and also foster
collaboration between two postal operators to provide products and services to meet
customer needs.


9
  The 2006 PAEA requires the Postal Service to report annual costs, revenues, volumes, and quality of service to the
PRC.
10
   Benchmarking of Costing Methodologies (Report Number MS-MA-13-004, dated August 14, 2013).
11
   Terminal dues are payments between member countries for the costs to process and deliver letter post mail.

                                                         6
Inbound China ePacket                                                           MS-AR-14-002
 Costing Methodology


Objective, Scope, and Methodology

The objective of this review was to assess whether the Postal Service accurately
determines the cost of inbound China ePackets. To accomplish our objective we:

   Interviewed Postal Service officials in the Cost Attribution Group, the International
    Accounting Office, and the Global Business Office.

   Reviewed the processes related to product costing for inbound international mail and
    for reporting it in the ICRA report.

   Examined the potential reasons for differences between domestic and international
    costs for specific international mail products.

   Analyzed international mail volume and how it affects costs overall. We evaluated
    and analyzed the revenue and cost for China ePackets as well as the ePackets'
    profitability.

We conducted this performance audit from February 2013 through February 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on December 10, 2013, and included
their comments where appropriate.

We did not perform a reliability assessment of any automated systems; however, we
determined the data used for this report were reliable by validating the data to source
documents.

Prior Audit Coverage

We did not identify any prior audits or reviews in the past 3 years related to the objective
of this audit.




                                             7
Inbound China ePacket                                                                             MS-AR-14-002
 Costing Methodology



                                   Appendix B: Monetary Impacts

          Recommendation        Impact Category                                         Amount
                 1       FY 2011 Revenue Loss12                                         $9,577,729
                 1       FY 2012 Revenue Loss                                           29,414,916
               Total                                                                   $38,992,645

The monetary impact represents inbound China ePacket revenue loss during FYs 2011
and 2012.13 The Postal Service does not currently report inbound ePacket revenue and
costs separately in its ICRA report.

We calculated the ePacket revenue based on the rates of the China Bilateral
Agreements. Nontransportation costs were based on a domestic First-Class, single-
piece Parcel, excluding the Window Service cost, reported in the FYs 2011 and 2012
CRAs. Transportation costs were based on inbound letter post airmail reported in
the FYs 2011 and 2012 ICRAs. For FY 2011, we calculated $9.6 million in lost
revenue based on 9,521,158 mailpieces multiplied by $1.006 lost per piece. We
calculated $29.4 million revenue lost for FY 2012 based on 26,831,047 mailpieces
multiplied by $1.096 lost per piece. We believe the costs for ePackets would be more
accurate if the Postal Service calculated and reported them disaggregately from the
costs of other inbound letter post mailpieces such as letters and flats.

We did not project future losses for FY 2013 because costs for that fiscal year period
are not yet available and the changes in costs across previous years provided no
consistent trend that we could apply to a future projection.




12
   Amount Postal Service is (or was) entitled to receive but was underpaid or not realized because policies,
procedures, agreements, requirements, or good business practices were lacking or not followed. This amount may be
recoverable or unrecoverable and may apply to historical events or a future period (in the sense perceived future
losses may be prevented by the implementation of a recommendation).
13
   This amount represents the revenue lost of ePackets originated from China.

                                                        8
Inbound China ePacket                                       MS-AR-14-002
 Costing Methodology


                        Appendix C: Management's Comments




                                        9
Inbound China ePacket        MS-AR-14-002
 Costing Methodology




                        10
Inbound China ePacket        MS-AR-14-002
 Costing Methodology




                        11
